No. 20-126
IN THE

Supreme Court of the United States
ANDALUSIAN GLOBAL DESIGNATED ACTIVITY COMPANY, ET AL.,
Petitioners,
v.
FINANCIAL OVERSIGHT AND MANAGEMENT BOARD
FOR PUERTO RICO, ET AL.,
Respondents.
CERTIFICATE OF SERVICE
I, Ian Heath Gershengorn, hereby certify that I am a member of the Bar of this
Court, and that I have this 8th day of October 2020, caused a paper copy of the Brief In
Opposition of the Official Committee of Retirees for the Commonwealth of Puerto Rico
to be delivered to the Court and an electronic version of the document to be delivered
to:
Helgi C. Walker
Gibson, Dunn & Crutcher LLP
1050 Connecticut Avenue, NW
Washington, DC 20036
(202) 887-3599
hwalker@gibsondunn.com

Martin J. Bienenstock
Proskauer Rose LLP
Eleven Times Square
New York, NY 10036
(212) 969-4530
mbienenstock@proskauer.com

Counsel for Andalusian Global
Designated Activity Company, et al.

Counsel for Financial Oversight and
Management Board for Puerto Rico, et
al.

/s/ Ian Heath Gershengorn
Ian Heath Gershengorn

